<1

docket no.:
Supreme Court of the United States

SEPIDEH CIRINO
Petitioner,
v.
OCWEN LOAN SERVICING, LLC, et al.
Respondents.
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the Ninth Circuit
Ninth Circuit case no. 19-55817
U.S. Dist. Ct., C.D. Cal., case no. 16-CV-00409
CERTIFICATE OF COMPLIANCE

Sepidah Cirino
27495 Hidden Trail Road
Laguna Hills, CA 92653-5875
Sally.cirino@yahoo.com
(949) 238-3774
In Pro Se

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS
STATE OF CALIFORNIA, COUNTY OF ORANGE
I, Sepideh Cirino, in Pro Se. I have personal knowledge of the facts upon which I make
this certification, and if called upon to testify, under oath, I could and would competently testify
thereto.
I hereby certify, pursuant to U.S. Supreme Court Rule 33.1(d), (g) and (h), that the
petition being filed concurrently herewith contains 4,734 words, including the footnotes, but
excluding the matters which are to be excluded pursuant to the second and fourth sentences of
U.S. Supreme Court Rule 33.1(d).
In making this certification, I am relying upon the word count function of the word
processing system used to prepare the petition; and it is and was set to include footnotes in the
word count.
I declare under penalty of perjury under the laws of the United States and of the State of
California that the foregoing is true and correct. Executed this
day of March 2021, at
Laguna Hills, California.

Sepideh Cirino, Declarant

